No. 19-863
IN THE

Supreme Court of the United States
AGUSTO NIZ-CHAVEZ,
Petitioner,
v.
WILLIAM P. BARR, ATTORNEY GENERAL,
Respondent.

On Writ of Certiorari to the United States
Court of Appeals for the Sixth Circuit

JOINT APPENDIX

DAVID J. ZIMMER
GOODWIN PROCTER LLP
100 Northern Ave.
Boston, MA 02210
dzimmer@goodwinlaw.com
(617) 570-1000

JEFFREY B. WALL
Acting Solicitor General
DEPARTMENT OF JUSTICE
Washington, DC 20530
SupremeCtBriefs@usdoj.gov
(202) 514-2217

Counsel of Record
for Petitioner

Counsel of Record
for Respondent

PETITION FOR WRIT OF CERTIORARI FILED: JAN. 9, 2020
CERTIORARI GRANTED: JUNE 8, 2020

TABLE OF CONTENTS
Court of Appeals Docket Entries ................................ 1
Form I-862, dated March 26, 2013 (A.R. 425-426)..... 5
Notice of Hearing in Removal Proceedings,
dated May 29, 2013 (A.R. 422)................................ 12
Transcript of Petitioner’s June 25, 2013
Hearing Before the Immigration
Judge (A.R. 149-153) ............................................... 15
Notice of Hearing in Removal Proceedings,
dated June 25, 2013 (A.R. 420-421)........................ 20
Transcript of Petitioner’s August 27, 2013
Hearing Before the Immigration
Judge (A.R. 154-160) ............................................... 25
Notice of Hearing in Removal Proceedings,
dated August 27, 2013 (A.R. 418-419) .................... 32
Notice of Hearing in Removal Proceedings,
dated February 10, 2015 (A.R. 417) ....................... 37
Notice of Hearing in Removal Proceedings,
dated September 21, 2016 (A.R. 416) ..................... 39
Transcript of Petitioner’s June 14, 2017
Hearing Before the Immigration
Judge (A.R. 161-165) ............................................... 42
Notice of Hearing in Removal Proceedings,
dated June 14, 2017 (A.R. 414-415)........................ 48

ii
Notice of Hearing in Removal Proceedings,
dated June 21, 2017 (A.R. 413) ............................... 53
Notice of Hearing in Removal Proceedings,
dated July 31, 2017 (A.R. 402)................................ 56
Notice of Hearing in Removal Proceedings,
dated September 13, 2017 (A.R. 398) ..................... 59
Notice of Hearing in Removal Proceedings,
dated October 12, 2017 (A.R. 396-397) ................... 62
Exhibits B and D to Petitioner’s Motion
for a Stay of Removal at the Sixth Circuit,
dated December 28, 2018 ........................................ 67

The following decisions and orders have been omitted
in printing the joint appendix because they appear in
the appendix to the petition for certiorari, beginning
on the following pages:
Court of Appeals Opinion ..........................Pet. App. 1a
Bd. of Immigration Appeals Decision .....Pet. App. 16a
Immigration Judge Decision ...................Pet. App. 26a
Immigration Judge Ruling on
Cancellation Eligibility .........................Pet. App. 41a

1
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT

AGUSTO NIZ-CHAVEZ,
Petitioner,
v.
WILLIAM P. BARR, ATTORNEY GENERAL,
Respondent.

DOCKET ENTRIES

Date

#

Docket Text

12/28/2018

1

Agency Case Docketed. Notice
filed by Petitioner Agusto NizChavez. Originating Case No: A
205 000 967.
***

12/28/2018

4

Petitioner EMERGENCY MOTION filed by Ms. Sufen Hilf for
Agusto Niz-Chavez for a stay of
removal.

12/31/2018

5

MOTION filed by Ms. Sufen Hilf
for Agusto Niz-Chavez to expedite decision.
***

2
Date

#

Docket Text

01/02/2019

11

RESPONSE in opposition filed
regarding a motion, [4]; previously filed by Ms. Sufen Hilf for
Agusto Niz- Chavez. Response
from Attorney Ms. Jennifer
Bowen for Respondent Matthew
G. Whitaker

01/03/2019

12

REPLY filed by Ms. Sufen Hilf
for Agusto Niz-Chavez regarding
Petitioners Emergency Motion
for Stay of Removal

01/11/2019

13

FILED: Supplement to Petitioner’s Emergency Motion for
Stay of Removal by Ms. Sufen
Hilf for Agusto Niz-Chavez.

01/25/2019

14

MOTION filed by Ms. Sufen Hilf
for Agusto Niz-Chavez to expedite decision.

01/25/2019

15

MOTION filed by Ms. Sufen Hilf
for Agusto Niz-Chavez for
EMERGENCY MOTION FOR
TEMPORARY RESTRAINING
ORDER DURING THE PENDENCY OF EMERGENCY MOTION FOR STAY OF REMOVAL

01/25/2019

16

ORDER filed: the motion to expedite and the motion for a stay
of removal pending review are

3
Date

#

Docket Text
GRANTED [4] [5] [15] [14], Damon J. Keith, Raymond M.
Kethledge and Amul R. Thapar,
Circuit Judges.

01/28/2019

17

ADMINISTRATIVE RECORD
filed. Number of Pages: 426
***

04/25/2019

22

PETITIONER BRIEF filed by
Ms. Sufen Hilf for Agusto NizChavez. Argument Request: requested.
***

06/26/2019

25

RESPONDENT BRIEF filed by
Ms. Jennifer Bowen for William
P. Barr Argument Request: not
requested.
***

07/16/2019

27

REPLY BRIEF filed by Attorney
Ms. Sufen Hilf for Petitioner
Agusto Niz-Chavez
***

08/19/2019

29

CAUSE SUBMITTED on briefs
to panel consisting of Judges
Cole, Merritt and Larsen.

4
Date

#

Docket Text

10/24/2019

30

OPINION filed: DENIED. Decision not for publication. R. Guy
Cole, Jr., Chief Judge (AUTHORING); Gilbert S. Merritt,
and Joan L. Larsen, Circuit
Judges.

11/25/2019

31

MOTION filed by Ms. Sufen Hilf
for Agusto Niz-Chavez to stay
mandate.

11/26/2019

32

ORDER filed GRANTING motion to stay mandate [31] pending a petition for writ of certiorari filed by Ms. Sufen Hilf. R.
Guy Cole, Jr., Chief Circuit
Judge; Gilbert S. Merritt and
Joan L. Larsen, Circuit Judges.

01/13/2020

33

U.S. Supreme Court notice filed
regarding a petition for a writ of
certiorari filed by Petitioner
Agusto Niz- Chavez. Supreme
Court Case No: 19-863,
01/09/2020.

06/08/2020

34

U.S. Supreme Court letter filed
granting the petition for a writ
of certiorari [33] filed by Agusto
Niz-Chavez.. Supreme Court
Case No: 19-863, 06/08/2020.

5
U.S. Department of Homeland Security
Notice to Appear
In removal proceedings under section 240 of the Immigration and Nationality Act:
Subject ID:345911051

FINS #:1148327997
DOB: [MM/DD]/1990
File No: A205 000 967
Event No:DTS1303000016

In the Matter of:
Respondent: AGUSTO NIZ-CHAVEZ
AKA: SUAREZ-PAGAN, DIONIS FELIX TI
currently residing at:
5913 LONYO ST. #2 DETROIT, MICHIGAN,
UNITED STATES 48210
(Number, street, city and ZIP code)
[tel. no.]
(Area code and phone number)
 1. You are an arriving alien.
 2. You are an alien present in the United States
who has not been admitted or paroled.
 3. You have been admitted to the United States,
but are removable for the reasons stated below.
The Department of Homeland Security alleges that
you:
1.

You are not a citizen or national of the United
States;

6
2.

You are a native of GUATEMALA and a citizen
of GUATEMALA;

3.

You arrived in the United States at or near an
unknown place, on or about an unknown date;

4.

You were not then admitted or paroled after Inspection by an Immigration Officer.

On the basis of the foregoing, it is charged that you
are subject to removal from the United States pursuant to the following provision(s) of law:
212(a)(6)(A)(i) of the Immigration and Nationality
Act, as amended, in that you are an alien present in
the United States without being admitted or paroled, or who arrived in the United States at any
time or place other than as designated by the Attorney General.
 This notice is being issued after an asylum officer
has found that the respondent has demonstrated a
credible fear of persecution or torture.
 Section 235(b)(1) order was vacated pursuant to:
 8CFR 208.30(f)(2)
 8CFR 235.3(b)(5)(iv)
YOU ARE ORDERED to appear before an immigration judge of the United States Department of Justice
at:
477 Michigan Avenue, Suite 440 Detroit MI US
48226
(Complete Address of Immigration Court, including
Room Number, if any)
on a date to be set at a time to be set to show why
(Date)
(Time)

7
you should not be removed from the United States
based on the charge(s) set forth above.
MARK R. HOLLOWAY [signature] ACTING PATROL AGENT IN CHARGE
(Signature and Title of Issuing Officer)
Date: March 26, 2013

DETROIT, MICHIGAN
(City and State)

See reverse for important information
Form I-862 (Rev. 08/01/07) N

8
Notice to Respondent
Warning: Any statement you make may be used
against you in removal proceedings.
Alien Registration: This copy of the Notice to Appear served upon you is evidence of your alien registration while you are under removal proceedings. You
are required to carry it with you at all times.
Representation: If you so choose, you may be represented in this proceeding, at no expense to the Government, by an attorney or other individual authorized and qualified to represent persons before the Executive Office for Immigration Review, pursuant to 8
CFR 3.16. Unless you so request, no hearing will be
scheduled earlier than ten days from the date of this
notice, to allow you sufficient time to secure counsel.
A list of qualified attorneys and organizations who
may be available to represent you at no cost will be
provided with this notice.
Conduct of the hearing: At the time of your hearing, you should bring with you any affidavits or other
documents, which you desire to have considered in
connection with your case. If you wish to have the testimony of any witnesses considered, you should arrange to have such witnesses present at the hearing.
At your hearing you will be given the opportunity to
admit or deny any or all of the allegations in the Notice to Appear and that you are inadmissible or removable on the charges contained in the Notice to Appear.
You will have an opportunity to present evidence on
your own behalf, to examine any evidence presented
by the Government, to object, on proper legal grounds,
to the receipt of evidence and to cross examine any

9
witnesses presented by the Government. At the conclusion of your hearing, you have a right to appeal an
adverse decision by the immigration judge.
You will be advised by the immigration judge before
whom you appear of any relief from removal for which
you may appear eligible including the privilege of departure voluntarily. You will be given a reasonable opportunity to make any such application to the immigration judge.
Failure to appear: You are required to provide the
DHS, in writing, with your full mailing address and
telephone number. You must notify the Immigration
Court immediately by using Form EOIR-33 whenever
you change your address or telephone number during
the course of this proceeding. You will be provided
with a copy of this form. Notices of hearing will be
mailed to this address. If you do not submit Form
EOIR-33 and do not otherwise provide an address at
which you may be reached during proceedings, then
the Government shall not be required to provide you
with written notice of your hearing. If you fail to attend the hearing at the time and place designated on
this notice, or any date and time later directed by the
Immigration Court, a removal order may be made by
the immigration judge in your absence, and you may
be arrested and detained by the DHS.
Mandatory Duty to Surrender for Removal: If
you become subject to a final Order of removal, you
must surrender for removal to one of the offices listed
in 8 CFR 241.16(a). Specific addresses on locations for
surrender can be obtained from your local DHS office
or over the internet at http://www.ice.gov/about/dro
/contact.htm. You must surrender within 30 days from
the date the order becomes administratively final,

10
unless you obtain an order from a Federal court, immigration court, or the Board of Immigration Appeals
staying execution of the removal order. Immigration
regulations at 8 CFR 241.1 define when the removal
order becomes administratively final. If you are
granted voluntary departure and fail to depart the
United States as required, fail to post a bond in connection with voluntary departure, or fail to comply
with any other condition or term in connection with
voluntary departure, you must surrender for removal
on the next business day thereafter. If you do not surrender for removal as required, you will be ineligible
for all forms of discretionary relief for as long as you
remain in the United States and for ten years after
departure or removal. This means you will be ineligible for asylum, cancellation of removal, voluntary departure, adjustment of status, change of nonimmigrant status, registry, and related waivers for this period. If you do not surrender for removal as required,
you may also be criminally prosecuted under section
243 of the Act.
Request for Prompt Hearing
To expedite a determination in my case, I request an
immediate hearing. I waive my right to a 10-day period prior to appearing before an immigration judge.
[signature]
(Signature of Respondent)
Before:
[signature]
(Signature and Title of Immigration Officer)
Date: 3/26/2013

11
Certificate of Service
This Notice To Appear was served on the respondent by me on March 26, 2013, in the following
manner and in compliance with section
239(a)(1)(F) of the Act.
 in person
 by certified mail, returned receipt requested
 by regular mail
 Attached is a credible fear worksheet.
 Attached is a list of organization and attorneys
which provide free legal services.
The alien was provided oral notice in the SPANISH language of the time and place of his or her
hearing and of the consequences of failure to appear as provided in section 240(b)(7) of the Act.
[signature]
(Signature of Respondent if Personally Served)
Jamere Bufford Border Patrol Agent
(Signature and Title of officer)
Form I-862 Page 2 (Rev. 08/01/07) N

12
NOTICE OF HEARING
IN REMOVAL PROCEEDINGS
IMMIGRATION COURT
477 MICHIGAN AVENUE, SUITE 440
DETROIT, MI 48226
RE: NIZ-CHAVEZ, AGUSTO
FILE: A205-000-967
DATE: May 29, 2013
TO:
NIZ-CHAVEZ, AGUSTO
5867 CECIL ST
DETROIT, MI 48210
Please take notice that the above captioned case has
been scheduled for a MASTER hearing before the Immigration Court on Jun 25, 2013 at 08:30 A.M. at:
477 MICHIGAN AVENUE, SUITE 440
DETROIT, MI 48226
You may be represented in these proceedings, at no
expense to the Government, by an attorney or other
individual who is authorized and qualified to represent persons before an Immigration court. Your hearing date has not been scheduled earlier than 10 days
from the date of service of the Notice to Appear in order to permit you the opportunity to obtain an attorney or representative. If you wish to be represented,
your attorney or representative must appear with you
at the hearing prepared to proceed. You can request
an earlier hearing in writing. Failure to appear at
your hearing except for exceptional circumstances
may result in one or more of the following actions: (1)

13
You may be taken into custody by the Department of
Homeland Security and held for further action, OR (2)
Your hearing may be held in your absence under section 240(b)(5) of the Immigration and Nationality Act.
An order of removal will be entered against you if the
Department of Homeland Security established by
clear, unequivocal and convincing evidence that a) you
or your attorney has been provided this notice and b)
you are removable.
IF YOUR ADDRESS IS NOT LISTED ON THE NOTICE TO APPEAR, OR IF IT IS NOT CORRECT,
WITHIN FIVE DAYS OF THIS NOTICE YOU MUST
PROVIDE TO THE IMMIGRATION COURT DETROIT, MI THE ATTACHED FORM EOIR-33 WITH
YOUR ADDRESS AND/OR TELEPHONE NUMBER
AT WHICH YOU CAN BE CONTACTED REGARDING THESE PROCEEDINGS. EVERYTIME YOU
CHANGE YOUR ADDRESS AND/OR TELEPHONE
NUMBER, YOU MUST INFORM THE COURT OF
YOUR NEW ADDRESS AND/OR TELEPHONE
NUMBER WITHIN 5 DAYS OF THE CHANGE ON
THE ATTACHED FORM EOIR-33. ADDITIONAL
FORMS EOIR-33 CAN BE OBTAINED FROM THE
COURT WHERE YOU ARE SCHEDULED TO APPEAR. IN THE EVENT YOU ARE UNABLE TO OBTAIN A FORM EOIR-33, YOU MAY PROVIDE THE
COURT IN WRITING WITH YOUR NEW ADDRESS
AND/OR TELEPHONE NUMBER BUT YOU MUST
CLEARLY MARK THE ENVELOPE “CHANGE OF
ADDRESS.” CORRESPONDENCE FROM THE
COURT, INCLUDING HEARING NOTICES, WILL
BE SENT TO THE MOST RECENT ADDRESS YOU
HAVE PROVIDED, AND WILL BE CONSIDERED
SUFFICIENT NOTICE TO YOU AND THESE

14
PROCEEDINGS CAN GO FORWARD IN YOUR ABSENCE.
A list of free legal service providers has been given
to you. For information regarding the status of your
case, call toll free 1-800-898-7180 or 240-314-1500.
For information on Immigration Court procedures,
please consult the Immigration Court Practice Manual, available at www.usdoj.gov/eoir.
CERTIFICATE OF SERVICE
THIS DOCUMENT WAS SERVED BY:
MAIL (X)

PERSONAL SERVICE (P)

TO:
[X] ALIEN

[ ] ALIEN c/o Custodial Officer

[ ] ALIEN’s ATT/REP [X] DHS
DATE: 3-29-13

BY: COURT STAFF [signature]

Attachments:
[X] EOIR-33

[ ] EOIR-28

[X] Legal Services List

[ ] Other

15
U.S. Department of Justice
Executive Office for Immigration Review
United States Immigration Court
In the Matter of
AGUSTO NIZ-CHAVEZ
RESPONDENT

File: A205-000-967
)
) IN REMOVAL PRO) CEEDINGS
)
) Transcript of Hearing

Before ROBERT D. NEWBERRY, Immigration
Judge
Date: June 25, 2013

Place:

Transcribed by DEPOSITION SERVICES, Inc.-2
Official Interpreter:
Language: SPANISH
Appearances:
For the Respondent: MR. MANN
For the DHS: JONATHAN GOULDING

16
JUDGE FOR THE RECORD
This is an initial removal hearing in A 205 000 967
on June 25, 2013. Robert Newberry presiding. Jonathan Goulding for the Government. Grace is our interpreter.
JUDGE TO MR. NIZ
Sir, give me your full and complete name, please.
MR. NIZ TO JUDGE
Agusto Niz-Chavez.
JUDGE TO MR. NIZ
You speak Spanish?
MR. NIZ TO JUDGE
Yes.
JUDGE TO MR. NIZ
Is that your best language, sir?
MR. NIZ TO JUDGE
Yes.
JUDGE TO MR. NIZ
Now, you live at 5867 Cecil Street?
MR. NIZ TO JUDGE
Yes.
JUDGE TO MR. NIZ
And do you want Mr. Mann to be your lawyer?
MR. NIZ TO JUDGE
I’m sorry?
JUDGE TO MR. NIZ

17
Do you want Mr. Mann, this gentleman seated next
to you, to be your lawyer, to speak for you?
MR. NIZ TO JUDGE
Yes.
JUDGE TO MR. MANN
Mr. Mann, the first exhibit is the March 26th, Notice to Appear. Do you concede its proper service and
waive reading?
MR. MANN TO JUDGE
Yes, Your Honor.
JUDGE TO MR. MANN
And the pleadings?
MR. MANN TO JUDGE
We admit the allegations and decline to name.
JUDGE TO MR. MANN
You concede removability?
MR. MANN TO JUDGE
Yes, Your Honor.
JUDGE TO MR. MANN
And you decline to designate.
JUDGE FOR THE RECORD
So the Court will designate Guatemala.
JUDGE TO MR. MANN
What forms of relief?
MR. MANN TO JUDGE

18
Withholding of removal, Your Honor, CAT, and voluntary departure in the alternative.
JUDGE TO MR. MANN
And have you prepared the application?
MR. MANN TO JUDGE
Not yet, Your Honor. If the Court will indulge me 60
days, I will appreciate it.
JUDGE TO MR. MANN
Now, you didn’t mention asylum. I assume you concede it would be too late?
MR. MANN TO JUDGE
That’s correct, Your Honor.
JUDGE TO MR. MANN
I’d like to do this at a master. 60 days would be August 26th. The nearest—well, is that right? Wait one
minute. How does August 27th, at 9:30?
MR. MANN TO JUDGE
Sounds excellent, Your Honor.
JUDGE TO MR. MANN
Okay. Make sure you comply with the biometrics by
that time.
MR. MANN TO JUDGE
Understood, Your Honor.
JUDGE TO MR. MANN
Failure to file and failure to comply with biometrics
will be deemed abandoned. And you’ll apprise him of
the consequences of not being here?

19
MR. MANN TO JUDGE
Yes, Your Honor.
JUDGE TO MR. MANN
Okay. Good.
MR. MANN TO JUDGE
Thank you very much.
JUDGE TO MR. MANN
Have a good day, sir.
MR. MANN TO JUDGE
Thank you.
CLERK TO JUDGE
601.
JUDGE TO CLERK
You’ve got [indiscernible].
HEARING CONTINUED

20
NOTICE OF HEARING
IN REMOVAL PROCEEDINGS
IMMIGRATION COURT
477 MICHIGAN AVENUE, SUITE 440
DETROIT, MI 48226
RE: NIZ-CHAVEZ, AGUSTO
FILE: A205-000-967
DATE: JUNE 25, 2013
TO:

Attorney MANN
NIZ-CHAVEZ, AGUSTO
5867 CECIL ST
DETROIT, MI 48210

Please take notice that the above captioned case has
been scheduled for a Master/Individual hearing before
the Immigration Court on Aug 27, 2013 at 9:30 at
477 MICHIGAN AVENUE, SUITE 440
DETROIT, MI 48226
You may be represented in these proceedings, at no
expense to the Government, by an attorney or other
individual who is authorized and qualified to represent persons before an Immigration Court. Your hearing date has not been scheduled earlier than 10 days
from the date of service of the Notice to Appear in order to permit you the opportunity to obtain an attorney or representative. If you wish to be represented,
your attorney or representative must appear with you
at the hearing prepared to proceed. You can request
an earlier hearing in writing.
WH
Application

21
Failure to appear at your hearing except for exceptional circumstances may result in one or more of the
following actions:
1) You may be taken into custody by the Department of Homeland Security and held for further action.
2) Your hearing may be held in your absence under
section 240(b)(5) of the Immigration and Nationality
Act. An order of removal will be entered against you if
the Department of Homeland Security established by
clear, unequivocal and convincing evidence that a) you
or your attorney has been provided this notice and b)
you are removable.
IF YOUR ADDRESS IS NOT LISTED ON THE NOTICE TO APPEAR, OR IF IT IS NOT CORRECT,
WITHIN FIVE DAYS OF THIS NOTICE YOU MUST
PROVIDE TO THE IMMIGRATION COURT DETROIT, MI THE ATTACHED FORM EOIR-33 WITH
YOUR ADDRESS AND/OR TELEPHONE NUMBER
AT WHICH YOU CAN BE CONTACTED REGARDING THESE PROCEEDINGS. EVERYTIME YOU
CHANGE YOUR ADDRESS AND/OR TELEPHONE
NUMBER, YOU MUST INFORM THE COURT OF
YOUR NEW ADDRESS AND/OR TELEPHONE
NUMBER WITHIN 5 DAYS OF THE CHANGE ON
THE ATTACHED FORM EOIR-33. ADDITIONAL
FORMS EOIR-33 CAN BE OBTAINED FROM THE
COURT WHERE YOU ARE SCHEDULED TO APPEAR. IN THE EVENT YOU ARE UNABLE TO OBTAIN A FORM EOIR-33, YOU MAY PROVIDE THE
COURT IN WRITING WITH YOUR NEW ADDRESS
AND/OR TELEPHONE NUMBER BUT YOU MUST
CLEARLY MARK THE ENVELOPE “CHANGE OF
ADDRESS.” CORRESPONDENCE FROM THE

22
COURT, INCLUDING HEARING NOTICES, WILL
BE SENT TO THE MOST RECENT ADDRESS YOU
HAVE PROVIDED, AND WILL BE CONSIDERED
SUFFICIENT NOTICE TO YOU AND THESE PROCEEDINGS CAN GO FORWARD IN YOUR ABSENCE.
A List of Free Legal Service Providers has been
given to you. For information regarding the status of
your case, call toll free 1-800-898-7180 OR 240-3141500.
LIMITATIONS ON DISCRETIONARY RELIEF
FOR FAILURE TO APPEAR
( )

1. You have been scheduled for a removal hearing, at the time and place set forth on the attached sheet. Failure to appear for this hearing other than because of exceptional circumstances beyond your control** will result in
your being found ineligible for certain forms
of relief under the Immigration and Nationality Act (see Section A. below) for a period of
ten (10) years after the date of entry of the
final order of removal.

( )

2. You have been scheduled for an asylum hearing, at the time and place set forth on the attached notice. Failure to appear for this hearing other than because of exceptional circumstances beyond your control** will result in
your being found ineligible for certain forms
of relief under the Immigration and Nationality Act (see Section A. Below) for a period
of ten (10) years from the date of your scheduled hearing.

23
( )

3. You have been granted voluntary departure
from the United States pursuant to section
240B of the Immigration and Nationality
Act, and remaining in the United States beyond the authorized date will result in your
being found ineligible for certain forms of relief under the Immigration and Nationality
Act (see Section A. Below) for ten (10) years
from the date of the scheduled departure.
Your Voluntary departure bond, if any, will
also be breached. Additionally, if you fail to
voluntarily depart the United States within
the time period. specified, you shall be subject to a civil penalty of not less than $1000
and not more than $5000.
**the term “exceptional circumstances” refers to circumstances such as serious illness
of the alien or death of an immediate relative
of the alien, but not including less compelling
circumstances.

A. THE FORMS OF RELIEF FROM REMOVAL FOR
WHICH YOU WILL BECOME INELIGIBLE ARE:
1) Voluntary departure as provided for in section
240B of the Immigration and Nationality Act;
2) Cancellation of removal as provided for in section 240A of the Immigration and Nationality
Act; and
3) Adjustment of status or change of status as provided for in Section 245, 248 or 249 of the Immigration and Nationality Act.
This written notice was provided to the alien in English. Oral notice of the contents of this notice must be
given to the alien in his/her native language, or in a

24
language he/she understands by the Immigration
Judge.
Date: Jun 25, 2013
Immigration Judge:

or Court Clerk:

CERTIFICATE OF SERVICE
THIS DOCUMENT WAS SERVED BY:
MAIL (M)

PERSONAL SERVICE (X)

TO:
[X] ALIEN

[ ] ALIEN c/o Custodial Officer

[X] ALIEN’s ATT/REP [X] DHS
DATE: 6-25-13

BY: COURT STAFF

DGL

Attachments:
[ ] EOIR-33

[ ] EOIR-28

[ ] Legal Services List

[ ] Other
N6

25
U.S. Department of Justice
Executive Office for Immigration Review
United States Immigration Court
In the Matter of
AGUSTO NIZ-CHAVEZ
RESPONDENT

File: A205-000-967
)
) IN REMOVAL PRO) CEEDINGS
)
) Transcript of Hearing

Before ROBERT D. NEWBERRY, Immigration
Judge
Date: August 27, 2013

Place:

Transcribed by DEPOSITION SERVICES, Inc.-2
Official Interpreter:
Language: SPANISH
Appearances:
For the Respondent: MR. MAYS
For the DHS: JONATHAN GOULDING

26
JUDGE FOR THE RECORD
This is a continuation of case ending in 967 on August 27, 2013. Robert Newberry presiding. Jonathan
Goulding for the Government. Bella is our interpreter.
JUDGE TO MR. NIZ
Sir, give me your full name, please.
MR. NIZ TO JUDGE
Agusto Niz-Chavez.
JUDGE TO MR. NIZ
Do you speak Spanish, sir?
MR. NIZ TO JUDGE
Yes.
JUDGE TO MR. NIZ
And do you live at 5867 Cecil?
MR. NIZ TO JUDGE
That is so.
JUDGE TO MR. NIZ
And do you want Mr. Mays to be your lawyer?
MR. NIZ TO JUDGE
Yes.
JUDGE TO MR. MAYS
Mr. Mays, he’s seeking withholding?
MR. MAYS TO JUDGE
Yes, Judge.
JUDGE TO MR. MAYS

27
And he concedes that the application is untimely?
MR. MAYS TO JUDGE
It is untimely. Yes, Judge.
JUDGE TO MR. MAYS
Now, I have an E-28 from George Mann. Do you
have an E-28 here with this packet?
MR. MAYS TO JUDGE
No. Should I file it online, or do you want the
Court—
JUDGE TO MR. MAYS
No. You’re going to have to do it on paper now.
MR. MAYS TO JUDGE
On paper now? Okay.
JUDGE TO MR. MAYS
Yes, unfortunately. You’re going to be the primary
counsel, right?
MR. MAYS TO JUDGE
I will be.
JUDGE TO MR. MAYS
Yes.
JUDGE TO MR. NIZ
Sir, your lawyer has given me an application for
withholding of removal.
Have you gone over this application, line by line and
word for word, using what you believe to be a competent interpreter?
MR. NIZ TO JUDGE

28
Yes.
JUDGE TO MR. NIZ
Is there anything in this application that you’d like
to change or correct before you sign it under oath?
MR. NIZ TO JUDGE
No.
JUDGE TO MR. NIZ
Sir, on the front page of the application it indicates
that you not only are fluent in Spanish, but you also
speak Mam. Your best language is Spanish?
MR. NIZ TO JUDGE
Yes.
JUDGE TO MR. NIZ
So we’ll have the interpreter at your hearing. All
right. Now, sir, unless there’s something you’d like to
change, correct, fix, or update, why don’t you come
here, and I’ll have you sign your application.
MR. NIZ TO JUDGE
Okay.
MR. MAYS TO JUDGE
Judge, there is one thing, just a scribbler’s error that
he’s not—I don’t believe he’s fluent in English, and it’s
marked that he is fluent in English.
JUDGE TO MR. NIZ
Sir, are you fluent in English?
MR. NIZ TO JUDGE
A little bit.

29
JUDGE TO MR. NIZ
Okay. But this says you’re fluent in English. Do you
want me to change that to you’re not so good in English?
MR. NIZ TO JUDGE
Yes.
JUDGE TO MR. NIZ
All right. I’ll go ahead and change that, then.
MR. MAYS TO JUDGE
Okay.
JUDGE TO MR. NIZ
Why don’t you come here, then, and I’ll have you
sign your application?
Come on over here. Please raise your right hand. Do
you swear or affirm you know the entire contents of
this application, and it’s all true and correct to the
best of your knowledge and belief?
MR. NIZ TO JUDGE
Yes, I swear.
JUDGE TO MR. NIZ
All right. Sir, if you’ll sign right there. Thank you,
sir. You can have a seat back by your lawyer.
JUDGE TO MR. MAYS
Mr. Mays, how many hours do we need for this?
MR. MAYS TO JUDGE
I think three-and-a-half hours should be sufficient,
Judge.

30
JUDGE TO MR. MAYS
Okay.
CLERK TO JUDGE
February 24th, 2016, at 8:30.
JUDGE TO CLERK
2016?
CLERK TO JUDGE
Yes.
JUDGE TO MR. MAYS
All right. Since it’s so far in the future, we’ll make
the call-up date a month earlier, January 24th, 2016.
We’ll have a Spanish interpreter.
JUDGE TO MR. NIZ
All right, sir. We’re going to have a hearing on your
application on February 24th, 2016, at 8:30 in the
morning. Now, make sure that you’re here, because if
you’re not you’ll get deported for not being here, unless your failure to be here is caused by an exceptional
circumstance beyond your control and no less severe
than your serious illness. And if you’re deported because you’re not here, you’d be ineligible for 10 years
for voluntary departure, cancellation of removal, and
change or adjustment of Immigration status. Do you
understand?
MR. NIZTO JUDGE
Yes.
JUDGE TO MR. NIZ
All right. We’ll see you next time, sir.

31
MR. NIZ TO JUDGE
I have a question. What time is the next appointment?
JUDGE TO MR. NIZ
It’s 8:30 in the morning.
MR. NIZ TO JUDGE
Okay. Thank you very much.
JUDGE TO MR. NIZ
It’s not until 2016, February 24th.
MR. NIZ TO JUDGE
Thank you very much.
JUDGE TO MR. NIZ
You’re welcome, sir.
HEARING CONTINUED

32
NOTICE OF HEARING
IN REMOVAL PROCEEDINGS
IMMIGRATION COURT
477 MICHIGAN AVENUE, SUITE 440
DETROIT, MI 48226
RE: NIZ-CHAVEZ, AGUSTO
FILE: A205-000-967
DATE: AUG 27, 2013
TO:

Attorney MAZE
MANN, GEORGE P.
33505 W. 14 MILE RD, SUITE 20
FARMINGTON HILLS, MI 48331

Please take notice that the above captioned case has
been scheduled for a Master/Individual hearing before
the Immigration Court on Feb 24, 2016 at 8:30 at
477 MICHIGAN AVENUE, SUITE 440
DETROIT, MI 48226
You may be represented in these proceedings, at no
expense to the Government, by an attorney or other
individual who is authorized and qualified to represent persons before an Immigration Court. Your hearing date has not been scheduled earlier than 10 days
from the date of service of the Notice to Appear in order to permit you the opportunity to obtain an attorney or representative. If you wish to be represented,
your attorney or representative must appear with you
at the hearing prepared to proceed. You can request
an earlier hearing in writing.

33
Failure to appear at your hearing except for exceptional circumstances may result in one or more of the
following actions:
1) You may be taken into custody by the Department of Homeland Security and held for-further action.
2) Your hearing may be held in your absence under
section 240(b)(5) of the Immigration and Nationality
Act. An order of removal will be entered against you if
the Department of Homeland Security established by
clear, unequivocal and convincing evidence that a) you
or your attorney has been provided this notice and b)
you are removable.
IF YOUR ADDRESS IS NOT LISTED ON THE NOTICE TO APPEAR, OR IF IT IS NOT CORRECT,
WITHIN FIVE DAYS OF THIS NOTICE YOU MUST
PROVIDE TO THE IMMIGRATION COURT DETROIT, MI THE ATTACHED FORM EOIR-33 WITH
YOUR ADDRESS AND/OR TELEPHONE NUMBER
AT WHICH YOU CAN BE CONTACTED REGARDING THESE PROCEEDINGS. EVERYTIME YOU
CHANGE YOUR ADDRESS AND/OR TELEPHONE
NUMBER, YOU MUST INFORM THE COURT OF
YOUR NEW ADDRESS AND/OR TELEPHONE
NUMBER WITHIN 5 DAYS OF THE CHANGE ON
THE ATTACHED FORM EOIR-33. ADDITIONAL
FORMS EOIR-33 CAN BE OBTAINED FROM THE
COURT WHERE YOU ARE SCHEDULED TO APPEAR. IN THE EVENT YOU ARE UNABLE TO OBTAIN A FORM EOIR-33, YOU MAY PROVIDE THE
COURT IN WRITING WITH YOUR NEW ADDRESS
AND/OR TELEPHONE NUMBER BUT YOU MUST
CLEARLY MARK THE ENVELOPE “CHANGE OF
ADDRESS.” CORRESPONDENCE FROM THE

34
COURT, INCLUDING HEARING NOTICES, WILL
BE SENT TO THE MOST RECENT ADDRESS YOU
HAVE PROVIDED, AND WILL BE CONSIDERED
SUFFICIENT NOTICE TO YOU AND THESE PROCEEDINGS CAN GO FORWARD IN YOUR ABSENCE.
A List of Free Legal Service Providers has been
given to you. For information regarding the status of
your case, call toll free 1-800-898-7180 OR 240-3141500.
LIMITATIONS ON DISCRETIONARY RELIEF
FOR FAILURE TO APPEAR
( )

1. You have been scheduled for a removal hearing, at the time and place set forth on the attached sheet. Failure to appear for this hearing other than because of exceptional circumstances beyond your control** will result in
your being found ineligible for certain forms
of relief under the Immigration and Nationality Act (see Section A. below) for a period of
ten (10) years after the date of entry of the
final order of removal.

( )

2. You have been scheduled for an asylum hearing, at the time and place set forth on the attached notice. Failure to appear for this hearing other than because of exceptional circumstances beyond your control** will result in
your being found ineligible for certain forms
of relief under the Immigration and Nationality Act (see Section A. Below) for a period
of ten (10) years from the date of your scheduled hearing.

35
( )

3. You have been granted voluntary departure
from the United States pursuant to section
240B of the Immigration and Nationality
Act, and remaining in the United States beyond the authorized date will result in your
being found ineligible for certain forms of relief under the Immigration and Nationality
Act (see Section A. Below) for ten (10) years
from the date of the scheduled departure.
Your Voluntary departure bond, if any, will
also be breached. Additionally, if you fail to
voluntarily depart the United States within
the time period specified, you shall be subject
to a civil penalty of not less than $1000 and
not more than $5000.
**the term “exceptional circumstances” refers to circumstances such . as serious illness
of the alien or death of an immediate relative
of the alien, but not including less compelling
circumstances.

A. THE FORMS OF RELIEF FROM REMOVAL FOR
WHICH YOU WILL BECOME INELIGIBLE ARE:
1) Voluntary departure as provided for in section
240B of the Immigration and Nationality Act;
2) Cancellation of removal-as provided for in section 240A of the Immigration and Nationality
Act; and
3) Adjustment of status or change of status as provided for in Section 245, 248 or 249 of the Immigration and Nationality Act.
This written notice was provided to the alien in English. Oral notice of the contents of this notice must be
given to the alien in his/her native language, or in a

36
language he/she understands by the Immigration
Judge.
Date: Aug 27, 2013
Immigration Judge:

or Court Clerk:

CERTIFICATE OF SERVICE
THIS DOCUMENT WAS SERVED BY:
MAIL (M)

PERSONAL SERVICE (X)

TO:
[ ] ALIEN

[ ] ALIEN c/o Custodial Officer

[X] ALIEN’s ATT/REP [X] DHS
DATE: 8-27-13

BY: COURT STAFF

DGL

Attachments:
[ ] EOIR-33

[ ] EOIR-28

[ ] Legal Services List

[ ] Other
N6

37
U.S. DEPARTMENT OF JUSTICE
EXECUTIVE OFFICE
FOR IMMIGRATION REVIEW
IMMIGRATION COURT
DETROIT, MI
MAZE, BRADLEY
33505 W. 14 MILE RD, SUITE 20
FARMINGTON HILLS, MI 48331
FILE: A205-000-967

DATE: Feb. 10, 2015

Notice of Hearing
RE: NIZ-CHAVEZ, AGUSTO
This notice is to inform you that the hearing in your
case currently scheduled for Feb 24, 2016, AT 08:30
A.M. has been cancelled.
Your case has been rescheduled for a hearing on November 29, 2019. This hearing date is set as an administrative measure to ensure the appropriate docketing and tracking of your case. Your hearing will
most likely be rescheduled at a later time. If your
hearing is rescheduled, you will receive notice of the
new date and time of your hearing.
If you change your address or telephone number,
you must notify the Immigration Court of your new
address or telephone number within five days of the
change. To change your address or telephone number,
you must provide the Immigration Court in DETROIT
the attached Form EOIR-33/IC with your current address and telephone number.
The Form EOIR-33/IC can also be obtained from the
DETROIT Immigration Court and is available on the

38
Executive Office for Immigration Review’s website at
www.justice.gov/eoir. Correspondence from the Immigration Court, including hearing notices, will be sent
to the most recent address you have provided. If you
do not appear at a hearing, you may be ordered deported in your absence.
If you are the attorney or representative of record,
it is your responsibility to advise your client of this information.
For information regarding the status of your case,
call toll free 1-800-898-7180.

CERTIFICATE OF SERVICE
THIS DOCUMENT WAS SERVED BY:
MAIL (X)

PERSONAL SERVICE (P)

TO:
[ ] ALIEN

[ ] ALIEN c/o Custodial Officer

[X] ALIEN’s ATT/REP [X] DHS
DATE: 2-10-15

BY: COURT STAFF DGL

Attachments:
[ ] EOIR-33

[ ] EOIR-28

[ ] Legal Services List

[ ] Other
P1

39
NOTICE OF HEARING
IN REMOVAL PROCEEDINGS
IMMIGRATION COURT
477 MICHIGAN AVENUE, SUITE 440
DETROIT, MI 48226
RE: NIZ-CHAVEZ, AGUSTO
FILE: A205-000-967
DATE: Sep 21, 2016
Attention: Your hearing has
been rescheduled. Disregard any
notice you may have received
before the above date
TO:

MAZE, BRADLEY
33505 W. 14 MILE RD, SUITE 20
FARMINGTON HILLS, MI 48331

Please take notice that the above captioned case has
been scheduled for a MASTER hearing before the Immigration Court on Jun 14, 2017 at 8:30 A.M. at
477 MICHIGAN AVENUE, SUITE 440
DETROIT, MI 48226
You may be represented in these proceedings, at no
expense to the Government, by an attorney or other
individual who is authorized and qualified to represent persons before an Immigration Court. Your hearing date has not been scheduled earlier than 10 days
from the date of service of the Notice to Appear in order to permit you the opportunity to obtain an attorney or representative. If you wish to be represented,
your attorney or representative must appear with you

40
at the hearing prepared to proceed. You can request
an , earlier hearing in writing.
Failure to appear at your hearing except for exceptional circumstances may result in one or more of the
following actions: (1) You may be taken into custody
by the Department of Homeland Security and held for
further action. OR (2) Your hearing may be held in
your absence under section 240(b)(5) of the Immigration and Nationality Act. An order of removal will be
entered against you if the Department of Homeland
Security established by clear, unequivocal and convincing evidence that a) you or your attorney has been
provided this notice and b) you are removable.
IF YOUR ADDRESS IS NOT LISTED ON THE NOTICE TO APPEAR, OR IF IT IS NOT CORRECT,
WITHIN FIVE DAYS OF THIS NOTICE YOU MUST
PROVIDE TO THE IMMIGRATION COURT DETROIT, MI THE ATTACHED FORM EOIR-33 WITH
YOUR ADDRESS AND/OR TELEPHONE NUMBER
AT WHICH YOU CAN BE CONTACTED REGARDING THESE PROCEEDINGS. EVERYTIME YOU
CHANGE YOUR ADDRESS AND/OR TELEPHONE
NUMBER, YOU MUST INFORM THE COURT OF
YOUR NEW ADDRESS AND/OR TELEPHONE
NUMBER WITHIN 5 DAYS OF THE CHANGE ON
THE ATTACHED FORM EOIR-33. ADDITIONAL
FORMS EOIR-33 CAN BE OBTAINED FROM THE
COURT WHERE YOU ARE SCHEDULED TO APPEAR. IN THE EVENT YOU ARE UNABLE TO OBTAIN A FORM EOIR-33, YOU MAY PROVIDE THE
COURT IN WRITING WITH YOUR NEW ADDRESS
AND/OR TELEPHONE NUMBER BUT YOU MUST
CLEARLY MARK THE ENVELOPE “CHANGE OF
ADDRESS.” CORRESPONDENCE FROM THE

41
COURT, INCLUDING HEARING NOTICES, WILL
BE SENT TO THE MOST RECENT ADDRESS YOU
HAVE PROVIDED, AND WILL BE CONSIDERED
SUFFICIENT NOTICE TO YOU AND THESE PROCEEDINGS CAN GO FORWARD IN YOUR ABSENCE.
A list of free legal service providers has been given
to you. For information regarding the status of your
case, call toll free 1-800-898-7180 or 240-314-1500.
For information on Immigration Court procedures,
please consult the Immigration Court Practice Manual, available at www.usdoj.gov/eoir.
CERTIFICATE OF SERVICE
THIS DOCUMENT WAS SERVED BY:
MAIL (M)

PERSONAL SERVICE (P)

TO:
[ ] ALIEN

[ ] ALIEN c/o Custodial Officer

[] ALIEN’s ATT/REP [] DHS
DATE: 09-21-16

BY: COURT STAFF [signature]

Attachments:
[ ] EOIR-33

[ ] EOIR-28

[ ] Legal Services List

[ ] Other

42
U.S. Department of Justice
Executive Office for Immigration Review
United States Immigration Court
In the Matter of

File: A205-000-967

AGUSTO NIZ-CHAVEZ
RESPONDENT

)
) IN REMOVAL PRO) CEEDINGS
)
) Transcript of Hearing

Before DAVID H. PARUCH, Immigration Judge
Date: June 14, 2017

Place: DETROIT, MICHIGAN

Transcribed by DEPOSITION SERVICES, Inc.-2
Official Interpreter: GRACE MURZA
Language: SPANISH
Appearances:
For the Respondent: BRADLEY MAYS
For the DHS: MICHAEL ALZANE

43
JUDGE FOR THE RECORD
These are continued removal proceedings in the
matter of Agusto Niz-Chavez, A 205 000 967. Today’s
date is June 14, 2017. Hearing location, Detroit, Michigan. David H. Paruch presiding. Michael Alzane
(phonetic sp.) is here for the Government. Bradley
Mays for respondent. Respondent is present in person
as is our staff interpreter, Grace Murza (phonetic sp.)
who’s providing the Spanish language interpretation.
JUDGE TO MR. NIZ
Sir, what is your full name?
MR. NIZ TO JUDGE
Agusto Niz-Chavez.
JUDGE TO MR. NIZ
And, sir, where do you live today?
MR. NIZ TO JUDGE
It’s 5870 Cecil.
JUDGE TO MR. NIZ
5870 or 5867?
MR. NIZ TO JUDGE
No, it’s 70.
JUDGE TO MR. NIZ
All right. 5870. Let’s just make a change in that.
Cecil Street in Detroit?
MR. NIZ TO JUDGE
Yes.
JUDGE TO MR. NIZ

44
Is Spanish the language you speak and understand
best, sir?
MR. NIZ TO JUDGE
Yes.
JUDGE TO MR. NIZ
And is Mr. Mays your attorney, and can he speak for
you today?
MR. NIZ TO JUDGE
Yes.
JUDGE TO MR. NIZ
Let me talk to the attorneys for a few minutes.
JUDGE FOR THE RECORD
The Notice to Appear is dated March 26th, 2013.
Judge Newberry marked it as the first exhibit. Factual allegations admitted. Removability conceded.
Guatemala designated if removal should become necessary. We also have a 589 in the file. It was executed
before Judge Newberry on August 27, 2013, but was
not stamped in on that date. I’ll stamp it in.
MR. MAYS TO JUDGE
I have a stamp on my copy.
JUDGE TO MR. MAYS
I think they stamped your copy, but they didn’t
stamp the Court copy.
JUDGE FOR THE RECORD
I’ll mark that as Exhibit 2 for identification, and
there are some support materials with it. The case
was then set for an individual hearing in February

45
2016. Due to lack of resources, the case went to November 2019, and, then, is back before the Court now
that we have some additional resources.
JUDGE TO MR. MAYS
Mr. Mays, how much hearing time will we need?
MR. MAYS TO JUDGE
I think a morning should suffice, Your Honor.
JUDGE TO MR. MAYS
Okay. Now, I see that at one point Judge Newberry
had noted the possibility of a cancellation, or was that
just—I—
MR. MAYS TO JUDGE
That may have been asserted at a master hearing.
JUDGE TO MR. MAYS
Yes. But I think, at this point, it’s just—
MR. MAYS TO JUDGE
Yes.
JUDGE TO MR. MAYS
—the 589, correct?
MR. MAYS TO JUDGE
He’s not eligible, I don’t—I’m pretty sure. Yes.
JUDGE TO MR. MAYS
Okay. Does it matter to you whether it’s morning or
afternoon, Mr. Mays?
MR. MAYS TO JUDGE
No, Your Honor.

46
CLERK TO JUDGE
4-21-2022 at 8:30.
JUDGE TO MR. MAYS
April 21, 2022, at 8:30 for the individual hearing.
March 21, 2022, call-up for exhibit and witness lists.
JUDGE TO MR. NIZ
All right, sir. You have to come back in almost five
years. That will be on April 21, 2022, at 8:30 in the
morning. If you don’t come on that day, I have to order
you removed to Guatemala in your absence, so it’s
very important that you do come on that day. A month
earlier, your attorney and the Government Attorney
have to give to me a list of the witnesses for your case
and any additional documents. Your attorney won’t be
able to do his job completely unless you stay in touch
and make sure he has any additional information that
will help your case. So be sure you stay in touch with
your attorney. But you have to come back to court on
April 21, 2022, unless your attorney tells you that the
date is changed to a different date. Okay, sir?
MR. NIZ TO JUDGE
Agreed.
JUDGE TO MR. MAYS
Mr. Mays, anything further in this matter?
MR. MAYS TO JUDGE
Nothing further from the respondent. Thank you,
Judge.
JUDGE TO MR. ALZANE
Mr. Alzane?

47
MR. ALZANE TO JUDGE
Nothing from the Government, Your Honor.
JUDGE FOR THE RECORD
We stand adjourned.
HEARING CONTINUED

48
NOTICE OF HEARING
IN REMOVAL PROCEEDINGS
IMMIGRATION COURT
477 MICHIGAN AVENUE, SUITE 440
DETROIT, MI 48226
RE: NIZ-CHAVEZ, AGUSTO
FILE: A205-000-967
DATE: Jun 14, 2017
TO:

MAZE, BRADLEY
33505 W. 14 MILE RD, SUITE 20
FARMINGTON HILLS, MI 48331

Please take notice that the above captioned case has
been scheduled for a Master/Individual hearing before
the Immigration Court on 4-21-22 at 8:30 A at
477 MICHIGAN AVENUE, SUITE 440
DETROIT, MI 48226
You may be represented in these proceedings, at no
expense to the Government, by an attorney or other
individual who is authorized and qualified to represent persons before an Immigration Court. Your hearing date has not been scheduled earlier than 10 days
from the date of service of the Notice to Appear in order to permit you the opportunity to obtain an attorney or representative. If you wish to be represented,
your attorney or representative must appear with you
at the hearing prepared to proceed. You can request
an- earlier hearing in writing.
Call-up
3-21-22

49
Failure to appear at your hearing except for exceptional circumstances may result in one or more of the
following actions:
1) You may be taken into custody by the Department of Homeland Security and held for further action.
2) Your hearing may be held in your absence under section 240(b)(5).of the Immigration and Nationality Act. An order of removal will be entered against
you if the Department of Homeland Security established by clear, unequivocal, and convincing evidence
that a) you or your attorney has been provided this
notice and b) you are removable.
IF YOUR ADDRESS IS NOT LISTED ON THE NOTICE TO APPEAR, OR IF IT IS NOT CORRECT,
WITHIN FIVE DAYS OF THIS NOTICE YOU MUST
PROVIDE TO THE IMMIGRATION COURT DETROIT, MI THE ATTACHED FORM EOIR-33 WITH
YOUR ADDRESS AND/OR TELEPHONE NUMBER
AT WHICH YOU CAN BE CONTACTED REGARDING THESE PROCEEDINGS. EVERYTIME YOU
CHANGE YOUR ADDRESS AND/OR TELEPHONE
NUMBER, YOU MUST INFORM THE COURT OF
YOUR NEW ADDRESS AND/OR TELEPHONE
NUMBER WITHIN 5 DAYS OF THE CHANGE ON
THE ATTACHED FORM EOIR-33. ADDITIONAL
FORMS EOIR-33 CAN BE OBTAINED FROM THE
COURT WHERE YOU ARE SCHEDULED TO APPEAR. IN THE EVENT YOU ARE UNABLE TO OBTAIN A FORM EOIR-33, YOU MAY PROVIDE THE
COURT IN WRITING WITH YOUR NEW ADDRESS
AND/OR TELEPHONE NUMBER BUT YOU MUST
CLEARLY MARK THE ENVELOPE “CHANGE OF
ADDRESS.” CORRESPONDENCE FROM THE

50
COURT, INCLUDING HEARING NOTICES, WILL
BE SENT TO THE MOST RECENT ADDRESS YOU
HAVE PROVIDED, AND WILL BE CONSIDERED
SUFFICIENT NOTICE TO YOU AND THESE PROCEEDINGS CAN GO FORWARD IN YOUR ABSENCE.
A List of Free Legal Service Providers has been
given to you. For information regarding the status of
your case, call toll free 1-800-898-7180 OR 240-3141500.
LIMITATIONS ON DISCRETIONARY RELIEF
FOR FAILURE TO APPEAR
( )

1. You have been scheduled for a removal hearing, at the time and place set forth on the attached sheet. Failure to appear for this hearing , other than because of exceptional circumstances beyond your control** will result
in your being found ineligible for certain
forms of relief under the Immigration and
Nationality Act (see Section A. below) for a
period of ten (10) years after the date of entry
of the final order of removal.

( )

2. You have been scheduled for an asylum hearing, at the time and place set forth on the attached notice. Failure to appear for this hearing other than because of exceptional circumstances beyond your control** will result in
your being found ineligible for certain forms
of relief- under-the Immigration and Nationality Act (see Section A. Below) for a period
of ten (10) years from the date of your scheduled hearing.

51
( )

3. You have been granted voluntary departure
from the United States pursuant to section
240B of the Immigration and Nationality
Act, and remaining in the United States beyond the authorized date will result in your
being found ineligible for certain forms of relief under the Immigration and Nationality
Act (see Section A. Below) for ten (10) years
from the date of the scheduled departure.
Your Voluntary departure bond, if any, will
also be breached. Additionally, if you fail to
voluntarily depart the United States within
the time period’ specified, you shall be subject to a civil penalty of not less than $1000
and not more than $5000.
**the term “exceptional circumstances” refers to circumstances such as serious illness
of the alien or death of an immediate relative
of the alien, but not including less compelling, circumstances.

A. THE FORMS OF RELIEF FROM REMOVAL FOR
WHICH YOU WILL BECOME INELIGIBLE ARE:
1) Voluntary departure as provided for in section
240B of the Immigration and Nationality Act;
2) Cancellation of removal as provided for in section 240A of the Immigration and Nationality
Act; and
3) Adjustment of status or change of status as provided for in Section 245, 248 or 249 of the Immigration and Nationality Act.
This written notice was provided to the alien in English. Oral notice of the contents of this notice must be
given to the alien in his/her native language, or in a

52
language he/she understands by the Immigration
Judge.
Date: Jun 14, 2017
Immigration Judge:

or Court Clerk:

CERTIFICATE OF SERVICE
THIS DOCUMENT WAS SERVED BY:
MAIL (M)

PERSONAL SERVICE ()

TO:
[ ] ALIEN

[ ] ALIEN c/o Custodial Officer

[] ALIEN’s ATT/REP [] DHS
DATE: 6-14-17

BY: COURT STAFF [signature]

Attachments:
[ ] EOIR-33

[ ] EOIR-28

[ ] Legal Services List

[ ] Other
N6

53
NOTICE OF HEARING
IN REMOVAL PROCEEDINGS
IMMIGRATION COURT
477 MICHIGAN AVENUE, SUITE 440
DETROIT, MI 48226
Hearing Will Be
Conducted By
VIDEO CONFERENCE
RE: NIZ-CHAVEZ, AGUSTO
FILE: A205-000-967
DATE: Jun 21, 2017
Attention: Your hearing has
been rescheduled. Disregard any
notice you may have received
before the above date
TO:

MAZE, BRADLEY
33505 W. 14 MILE RD, SUITE 20
FARMINGTON HILLS, MI 48331

Please take notice that the above captioned case has
been scheduled for a INDIVIDUAL hearing before the
Immigration Court on Aug 22, 2017 at 1:00 P.M. at:
477 MICHIGAN AVENUE, SUITE 440
DETROIT, MI 48226
You may be-represented in these proceedings, at no
expense to the Government, by an attorney or other
individual who is authorized and qualified to represent persons before an Immigration Court. Your hearing date has not been scheduled earlier than 10 days
from the date of service-of the Notice to Appear in

54
order to permit you the opportunity to obtain an attorney or representative. If you wish to be represented,
your attorney or representative must appear with you
at the hearing prepared to proceed. You can request
an earlier hearing in writing.
Failure to appear, at your-hearing except for exceptional circumstances may result in one or more of the
following actions: (1) You may be taken into custody
by the Department of Homeland Security and held for
further action. OR (2) Your hearing may be held in
your absence under section 240(b)(5) of the Immigration and Nationality Act. An order of removal will be
entered against you if the Department of Homeland
Security established by clear, unequivocal and convincing evidence that a) you or your attorney has been
provided this notice and b) you are removable.
IF YOUR ADDRESS IS NOT LISTED ON THE NOTICE TO APPEAR, OR IF IT IS NOT CORRECT,
WITHIN FIVE DAYS OF THIS NOTICE YOU MUST
PROVIDE TO THE IMMIGRATION COURT DETROIT, MI THE ATTACHED FORM EOIR-33 WITH
YOUR ADDRESS AND/OR TELEPHONE NUMBER
AT WHICH YOU CAN BE-CONTACTED REGARDING THESE PROCEEDINGS. EVERYTIME YOU
CHANGE YOUR ADDRESS AND/OR TELEPHONE
NUMBER, YOU MUST INFORM THE COURT OF
YOUR NEW ADDRESS AND/OR TELEPHONE
NUMBER WITHIN 5 DAYS OF THE CHANGE ON
THE ATTACHED FORM EOIR-33. ADDITIONAL
FORMS EOIR-33 CAN BE OBTAINED FROM THE
COURT WHERE YOU ARE SCHEDULED TO APPEAR. IN THE EVENT YOU ARE UNABLE TO OBTAIN A FORM EOIR-33, YOU MAY PROVIDE THE
COURT IN WRITING WITH YOUR NEW ADDRESS

55
AND/OR TELEPHONE NUMBER BUT YOU MUST
CLEARLY MARK THE ENVELOPE “CHANGE OF
ADDRESS.” CORRESPONDENCE FROM THE
COURT, INCLUDING HEARING NOTICES, WILL
BE SENT TO THE MOST RECENT ADDRESS YOU
HAVE PROVIDED, AND WILL BE CONSIDERED
SUFFICIENT NOTICE TO YOU AND, THESE PROCEEDINGS CAN GO FORWARD IN YOUR ABSENCE.
A list of free legal service providers has been given
to you. For information regarding the status of your
case, call toll free 1-800-898-7180 or 240-314-1500.
For information on Immigration Court procedures,
please, consult the Immigration Court Practice Manual, available at www.usdoj.gov/eoir.
CERTIFICATE OF SERVICE
THIS DOCUMENT WAS SERVED BY:
MAIL ()

PERSONAL SERVICE (P)

TO:
[ ] ALIEN

[ ] ALIEN c/o Custodial Officer

[] ALIEN’s ATT/REP [] DHS
DATE: 06-21-17

BY: COURT STAFF [signature]

Attachments:
[ ] EOIR-33

[ ] EOIR-28

[ ] Legal Services List

[ ] Other

56
NOTICE OF HEARING
IN REMOVAL PROCEEDINGS
IMMIGRATION COURT
477 MICHIGAN AVENUE, SUITE 440
DETROIT, MI 48226
RE: NIZ-CHAVEZ, AGUSTO
FILE: A205-000-967
DATE: Jul 31, 2017
TO:

George P.Mann & Assoc., P.C.
Mann, George Peter
33505 W. 14 Mile Rd., Ste 20
Farmington Hills, MI 48331

Please take notice that the above captioned case has
been scheduled for a INDIVIDUAL hearing before
the Immigration Court on Sep 13, 2017 at 08:30 A.M,
at:
477 MICHIGAN AVENUE, SUITE 440
DETROIT, MI 48226
You may be represented in these proceedings, at no
expense to the Government, by an attorney or other
individual who is authorized and qualified to represent persons before an Immigration Court. Your hearing date has not been scheduled earlier than 10 days
from the date of service of the Notice to Appear in order to permit you the opportunity to obtain an attorney or representative. If you wish to be represented,
your attorney or representative must appear with you
at the hearing prepared to proceed. You can request
an earlier hearing in writing.

57
Failure to appear at your hearing except for exceptional circumstances may result in one or more of the
following actions: (1) You may be taken into custody
by the Department of Homeland Security and held for
further action. OR (2) Your hearing may be held in
your absence under section 240(b)(5) of the Immigration and Nationality Act. An order of removal will be
entered against you if the Department of Homeland
Security established by clear, unequivocal and convincing evidence that a) you or your attorney has been
provided this notice and b) you are removable.
IF YOUR ADDRESS IS NOT LISTED ON THE NOTICE TO APPEAR, OR IF IT IS NOT CORRECT,
WITHIN FIVE DAYS OF THIS NOTICE YOU MUST
PROVIDE TO THE IMMIGRATION COURT DETROIT, MI THE ATTACHED FORM EOIR-33 WITH
YOUR ADDRESS AND/OR TELEPHONE NUMBER
AT WHICH YOU CAN BE CONTACTED REGARDING THESE PROCEEDINGS. EVERYTIME YOU
CHANGE YOUR ADDRESS AND/OR TELEPHONE
NUMBER, YOU MUST INFORM THE COURT OF
YOUR NEW ADDRESS AND/OR TELEPHONE
NUMBER WITHIN 5 DAYS OF THE CHANGE ON
THE ATTACHED FORM EOIR-33. ADDITIONAL
FORMS EOIR-33 CAN BE OBTAINED FROM THE
COURT WHERE YOU ARE SCHEDULED TO APPEAR. IN THE EVENT YOU ARE UNABLE TO OBTAIN A FORM EOIR-33, YOU MAY PROVIDE THE
COURT IN WRITING WITH YOUR NEW ADDRESS
AND/OR TELEPHONE NUMBER BUT YOU MUST
CLEARLY MARK THE ENVELOPE “CHANGE OF
ADDRESS.” CORRESPONDENCE FROM THE
COURT, INCLUDING HEARING NOTICES, WILL
BE SENT TO THE MOST RECENT ADDRESS YOU
HAVE PROVIDED, AND WILL BE CONSIDERED

58
SUFFICIENT NOTICE TO YOU AND THESE PROCEEDINGS CAN GO FORWARD IN YOUR ABSENCE.
A list of free legal service providers has been given
to you. For information regarding the status of your
case, call toll free 1-800-898-7180 or 240-314-1500.
For information on Immigration Court procedures,
please consult the Immigration Court Practice Manual, available at www.usdoj.gov/eoir.
CERTIFICATE OF SERVICE
THIS DOCUMENT WAS SERVED BY:
MAIL (M)

PERSONAL SERVICE (P)

TO:
[ ] ALIEN

[ ] ALIEN c/o Custodial Officer

[] ALIEN’s ATT/REP [] DHS
DATE: 7-31-17

BY: COURT STAFF [signature]

Attachments:
[ ] EOIR-33

[ ] EOIR-28

[ ] Legal Services List

[ ] Other

59
NOTICE OF HEARING
IN REMOVAL PROCEEDINGS
IMMIGRATION COURT
477 MICHIGAN AVENUE, SUITE 440
DETROIT, MI 48226
RE: NIZ-CHAVEZ, AGUSTO
FILE: A205-000-967
DATE: Sep 13, 2017
TO:

George P. Mann & Assoc., P.C.
Mann, George Peter
33505 W. 14 Mile Rd., Ste 20
Farmington Hills, MI 48331

Please take notice that the above captioned case has
been scheduled for a INDIVIDUAL hearing before the
Immigration Court on Oct 2, 2017 at 10:00 A.M. at:
477 MICHIGAN AVENUE, SUITE 440
DETROIT, MI 48226
You may be represented in these proceedings, at no
expense to the Government, by an attorney or other
individual who is authorized and qualified to represent persons before an Immigration Court. Your hearing date has not been scheduled earlier than 10 days
from the date of service of the Notice to Appear in order to permit you the opportunity to obtain an attorney or representative. If you wish to be represented,
your attorney or representative must appear with you
at the hearing prepared to proceed. You can request
an earlier hearing in writing.
Failure to appear at your hearing except for exceptional circumstances may result in one or more of the

60
following actions: (1) You may be taken into custody
by the Department of Homeland Security and held for
further action. OR (2) Your hearing may be held in
your absence under section 240(b)(5) of the Immigration and Nationality Act. An order of removal will be
entered against you if the Department of Homeland
Security established by clear, unequivocal and convincing evidence that a) you or your attorney has been
provided this notice and b) you are removable.
IF YOUR ADDRESS IS NOT LISTED ON THE NOTICE TO APPEAR, OR IF IT IS NOT CORRECT,
WITHIN FIVE DAYS OF THIS NOTICE YOU MUST
PROVIDE TO THE IMMIGRATION COURT DETROIT, MI THE ATTACHED FORM EOIR-33 WITH
YOUR ADDRESS AND/OR TELEPHONE NUMBER
AT WHICH YOU CAN BE CONTACTED REGARDING THESE PROCEEDINGS. EVERYTIME YOU
CHANGE YOUR ADDRESS AND/OR TELEPHONE
NUMBER, YOU MUST INFORM THE COURT OF
YOUR NEW ADDRESS AND/OR TELEPHONE
NUMBER WITHIN 5 DAYS OF THE CHANGE ON
THE ATTACHED FORM EOIR-33. ADDITIONAL
FORMS EOIR-33 CAN BE OBTAINED FROM THE
COURT WHERE YOU ARE SCHEDULED TO APPEAR. IN THE EVENT YOU ARE UNABLE TO OBTAIN A FORM EOIR-33, YOU MAY PROVIDE THE
COURT IN WRITING WITH YOUR NEW ADDRESS
AND/OR TELEPHONE NUMBER BUT YOU MUST
CLEARLY MARK THE ENVELOPE “CHANGE OF
ADDRESS.” CORRESPONDENCE FROM THE
COURT, INCLUDING HEARING NOTICES, WILL
BE SENT TO THE MOST RECENT ADDRESS YOU
HAVE PROVIDED, AND WILL BE CONSIDERED
SUFFICIENT NOTICE TO YOU AND THESE

61
PROCEEDINGS CAN GO FORWARD IN YOUR ABSENCE.
A list of free legal service providers has been given
to you. For information regarding the status of your
case, call toll free 1-800-898-7180 or 240-314-1500.
For information on Immigration Court procedures,
please consult the Immigration Court Practice Manual, available at www.usdoj.gov/eoir.
CERTIFICATE OF SERVICE
THIS DOCUMENT WAS SERVED BY:
MAIL (M)

PERSONAL SERVICE (P)

TO:
[ ] ALIEN

[ ] ALIEN c/o Custodial Officer

[] ALIEN’s ATT/REP [] DHS
DATE: 9/13/2017 BY: COURT STAFF [signature]
Attachments:
[ ] EOIR-33

[ ] EOIR-28

[ ] Legal Services List

[ ] Other

62
NOTICE OF HEARING
IN REMOVAL PROCEEDINGS
IMMIGRATION COURT
477 MICHIGAN AVENUE, SUITE 440
DETROIT, MI 48226
RE: NIZ-CHAVEZ, AGUSTO
FILE: A205-000-967
DATE: 10/12/17
TO:

George P. Mann & Assoc., P.C.
Mann, George Peter
33505 W. 14 Mile Rd., Ste 20
Farmington Hills, MI 48331

Please take notice that the above captioned case
has. been scheduled for a Master/Individual hearing
before the Immigration Court on Nov 8, 2017 at 1:00
P.M. at
477 MICHIGAN AVENUE, SUITE 440
DETROIT, MI 48226
You may be represented in these proceedings, at no
expense to the Government, by an attorney or other
individual who is authorized and qualified to represent persons before an Immigration Court. Your hearing date has not ‘ been scheduled earlier than 10 days
from the date of service of the Notice to Appear in order to permit you the opportunity to obtain an attorney or representative. If you wish to be represented,
your attorney or representative must appear with you
at the hearing prepared to proceed. You can request
an earlier hearing in writing.

63
Failure to appear at your hearing except for exceptional circumstances may result in one or more of the
following actions:
1) You may be taken into custody by the Department of Homeland Security and held for further action.
2) Your hearing may be held in your absence under
section 240(b)(5) of the Immigration and Nationality
Act. An order of removal will be entered against you if
the Department of Homeland Security established by
clear, unequivocal and convincing evidence that a) you
or your attorney has been provided this notice and b)
you are removable.
IF YOUR ADDRESS IS NOT LISTED ON THE NOTICE TO APPEAR, OR IF IT IS NOT CORRECT,
WITHIN FIVE DAYS OF THIS NOTICE YOU MUST
PROVIDE TO THE IMMIGRATION COURT DETROIT, MI THE ATTACHED FORM EOIR-33 WITH
YOUR ADDRESS AND/OR TELEPHONE NUMBER
AT WHICH YOU CAN BE CONTACTED REGARDING THESE PROCEEDINGS. EVERYTIME YOU
CHANGE YOUR ADDRESS AND/OR TELEPHONE
NUMBER, YOU MUST INFORM THE COURT OF
YOUR NEW ADDRESS AND/OR TELEPHONE
NUMBER WITHIN 5 DAYS OF THE CHANGE ON
THE ATTACHED FORM EOIR-33. ADDITIONAL
FORMS EOIR-33 CAN BE OBTAINED FROM THE
COURT WHERE YOU ARE SCHEDULED TO APPEAR. IN THE EVENT YOU ARE UNABLE TO OBTAIN A FORM EOIR-33, YOU MAY PROVIDE THE
COURT IN WRITING WITH YOUR NEW ADDRESS
AND/OR TELEPHONE NUMBER BUT YOU MUST
CLEARLY MARK THE ENVELOPE “CHANGE ‘ OF
ADDRESS.” CORRESPONDENCE FROM THE

64
COURT, INCLUDING HEARING NOTICES, WILL
BE SENT; TO THE MOST RECENT ADDRESS YOU
HAVE PROVIDED, AND WILL BE CONSIDERED
SUFFICIENT NOTICE TO YOU AND THESE PROCEEDINGS CAN GO FORWARD IN YOUR ABSENCE.
A List of Free Legal Service Providers has been
given to you. For information regarding the status of
your case, call toll free 1-800-898-7180 or 240-3141500. For information on Immigration Court procedures, please consult the Immigration Court Practice
Manual, available at www.usdoj.gov/eoir.
LIMITATIONS ON DISCRETIONARY RELIEF
FOR FAILURE TO APPEAR
()

1. You have been scheduled for a removal hearing, at the time and place set forth on the attached sheet. Failure to appear for this hearing other than because of exceptional circumstances beyond your control** will result in
your being found ineligible for certain forms
of relief under the Immigration and Nationality Act (see Section A. below) for a period of
ten (10) years after the date of entry of the
final order of removal.

( )

2. You have been scheduled for an asylum hearing, at the time and place set forth on the attached notice. Failure to appear for this hearing other than because of exceptional circumstances beyond your control** will result in
your being found ineligible for certain forms
of relief under the Immigration and Nationality Act (see Section A. Below) for a period

65
of ten (10) years from the date of your scheduled hearing.
( )

3. You have been granted voluntary departure
from the United States pursuant to section
240B of the Immigration and Nationality
Act, and remaining in the United States beyond the authorized date will result in your
being found ineligible for certain forms of relief under the . Immigration and Nationality
Act (see Section A. Below) for ten (10) years
from the date of the scheduled departure.
Your Voluntary departure bond, if any, will
also be breached. Additionally, if you fail to
voluntarily depart the United States within
the time period specified, you shall be subject
to a civil penalty of not less than $1000 and
not more than $5000.
** the term “exceptional circumstances” refers to circumstances such as serious illness
of the alien or death of an immediate relative
of the alien, but not including less compelling
circumstances.

A. THE FORMS OF RELIEF FROM REMOVAL FOR
WHICH YOU WILL BECOME INELIGIBLE ARE:
1) Voluntary departure as provided for in section
240B of the Immigration and Nationality Act;
2) Cancellation of removal as provided for in section
240A of the Immigration and Nationality Act;
and
3) Adjustment of status or change of status as provided for in Section 245, 248 or 249 of the Immigration and Nationality Act.

66
This written notice was provided to the alien in English. Oral notice of the contents of this notice must be
given to the alien in his/her native language, or in a
language he/she understands by the Immigration
Judge.
Date: Nov 8, 2017
Immigration Judge:

or Court Clerk: [signature]

CERTIFICATE OF SERVICE
THIS DOCUMENT WAS SERVED BY:
MAIL (X)

PERSONAL SERVICE (P)

TO:
[ ] ALIEN

[ ] ALIEN c/o Custodial Officer

[] ALIEN’s ATT/REP [] DHS
DATE: 10/12/17

BY: COURT STAFF [signature]

Attachments:
[ ] EOIR-33

[ ] EOIR-28

[ ] Legal Services List

[ ] Other
V6

67
CHASS
Community Health And Social Services Center
Southwest Center
5635 W. Fort St.
Detroit, MI 48209
t 313.849.3920 f 313.849.0824
www.chasscenter.org
12/18/2018
Regarding: [A.] Niz-Chavez
DOB: [DD/MM]/2014
Address: 5870 Cecil St,
Detroit, Ml 48210
To Whom It May Concern:
This letter is to verify that Ms. [A.] Niz-Chavez is a
patient of Community Health and Social Services
(CHASS) Center receiving medical services at our
Southwest Center. Ms. [A.] Niz-Chavez has been a patient of CHASS since 09/15/2014. Ms. [A.] Niz-Chavez
was referred for speech therapy due to concerns regarding developmental and speech delays by her primary care provider. She currently receives speech language therapy at Henry Ford secondary to a diagnosis
of Mixed Receptive-Expressive Language Disorder.
She was first evaluated by Dr. D. Kaminske on
08/15/2017.
Any additional questions or concerns may be directed to our office at 313-849-3920,
Sincerely,
[signature]
[C.F.], LLMSW
Behavioral Health Specialist

68
MATRIX HUMAN SERVICES
“Touching Hearts, Changing Lives”
Established 1906
Matrix Head Start
1100 Woodbridge
Detroit, Michigan 48207
p 313.962.5255
Date: September 11, 2018
Address: 5690 Cecil St.
Detroit, MI 48210
(313) 897-3310
RE: [A.] Niz-Chavez
To Whom It May Concern:
This letter is to inform you that [A.] Niz-Chavez is
currently enrolled in the 2018-2019 program year
with Matrix Head Start. [A.] attends the Cecil Center
located at the above address, and this is [A.]’s second
year with the program. The child’s parents [I.C.R.]
and Agusto Niz-Chavez have expressed concerns in
regards to developmental delays in the child. Specifically, delays in speech and language, As a result [A.]
is currently in the process to receive services for
speech and language with Matrix Head Start. [A.]’s
parents also informed us that the child is receiving
services for speech and language through Henry Ford
Speech Pathology Center. Attached to this letter are
the child observations done by certified speech
pathologists at her school, teacher concerns and prereferrals. Also attached are documentation of the services child receives at Henry Ford.
Moving forward this school year our primary goal
for the child is to complete an Individual Education
Plan (IEP) for speech and language.

69
Thank You,
[signature]
[D.L.], Family Advocate

70
HENRY FORD HEALTH SYSTEM
December 15, 2017
Guardian of [A.] Niz Chavez
5870 Cecil
Detroit MI 48210
Patient:
MRN:
Date of Birth:
Date of Visit:

[A.] Niz Chavez
[]
[MM/DD]/2014
[MM/DD]/2017

To Whom it May Concern:
[A.] Niz Chavez has been followed in our eye clinic
with an eye muscle problem called left Brown’s Syndrome. [A.] manifests a face turn to the right to compensated for this problem. She should be allow to use
her face turn when viewing learning material. Brown
syndrome does not cause developmental delay or
learning disabilities.
If there are further questions, I can be reached at
[tel. no.].
Sincerely,
[signature]
[P.D.], MD
HFMC DETC OPHTHALMOLOGY
2799 W. Grand Blvd.
Detroit MI 48202
Dept: [tel. no.]
Dept Fax: [fax. no.]

71
Children’s Hospital of Michigan
Detroit Medical Center/Wayne State University
3901 Beaubien
Detroit, Ml 48201-2186
12/14/18
To whomsoever it concerns,
Baby [I.Y.] NIZ-CHAVEZ was born at 32 weeks & 1
day of gestational age. She is currently 28 days old (37
weeks 3 days corrected gestational age), & admitted
to Children’s Hospital of Michigan, Detroit NICU dept
for RSV Bronchiolitis. She is currently requiring
NIPPV (higher respiratory support) & only can be
done in NICU. So she needs to remain admitted to
NICU for it.
Baby’s parents are as following:
Father:

AGUSTO NIZ CHAVEZ

Mother:

[I.E.C.R.]

Please contact CHM NICU for further questions.
Dr. [P.D.] [signature]

72
St. Francis D’Assisi ~ St. Hedwig Parish
3245 Junction St. Detroit MI 48210
Phone: [tel. no.] Fax: [fax. no.]
December 18, 2018
Department of Immigration and Naturalization
To whom it may concern,
This letter is to affirm that Agusto Niz Chavez registered parishioners of St. Francis D’Assisi - St. Hedwig Parish. He attends mass regularly and is an active
members of our Community and is a minister leader
of The Good Pastor. If you have any questions or concerns please contact the rectory at [tel. no.].
God bless you.
Sincerely,
[signature]
Reverend [B.C.]
Parish Pastor
St Francis D’Assisi ~ St. Hedwig Parish
Phone: [tel. no.]

73
Dec 21, 2018
To whom this may concern,
My name is [F.C.], I have known Agusto Niz-Chavez
sense 2008. We have worked together for the past
years. He is a hard working person at the job he currently holds. Agusto Is a good loving Father that provides for his family as much as he can. Every sense I
have known him and worked together always never
tries to miss work unless he really needs to. Especially
sense he is the only one in his family working at the
moment.
If you have any questions or concerns please feel
free to reach me at [tel. no.]
[signature]
[F.C.]

74
TRADUCCIONES LOURDES
TRANSLATION & NOTARY SERVICE
1938 CAMPBELL ST. DETROIT, Ml 46209
* PHONE [tel. no.] * FAX [fax. no.]
ENGLISH EXACT TRANSLATION
12-17-18
I, [S.L.] give testimony that I know Mr. Agusto Niz
Chavez and his family Mrs. [I.C.R.]. I met them on the
year 2007 in the church St. Hedwig, which was the
name of church before, now it’s called St. Francis
D’Assisi - St. Hedwig. I used to go to mass to meetings
and they would go also. After they had their son, [J.A.]
Niz Chavez, then their daughter, [A.R.] Niz Chavez,
and now their other daughter, [I.] Niz Chavez. Even
though we all attend the same church and we share
together so I testify that he is a responsible person
with his family. He fights for them in order to support
them every day. In the time that I shared with him he
is a respectful and kind person of good feelings.
Signature of [S.L.]
Certificate of Translator’s Competence
I, [V.D.], hereby certify that the above is accurate
translation from Spanish to English language, and I
am fluent in Spanish render the translation.
[signature]
1938 Campbell St. Detroit, MI 48209

75
State of Michigan}
County of Wayne}
In Witness whereof I here unto subscribe my signature and affix my seal this day of Monday, December
18th, 2018.
[signature]
Notary Public
[L.A.]
Notary Public - State of Michigan
County of Wayne
My Commission Expires Dec 6, 2021
Acting in the County of Wayne

